Audit of USAID/Washington’s
Management of Its Photocopying Program


Audit Report No. A-000-02-004-P

September 25, 2002




                     Washington, D.C.
September 25, 2002

MEMORANDUM
FOR:            M/AS, Roberto J. Miranda

FROM:           IG/A/ITSA, Melinda G. Dempsey

SUBJECT:        Audit of USAID/Washington’s Management of Its
                Photocopying Program
                (Report No. A-000-02-004-P)

This is our final report on the subject audit. In finalizing this report, we
considered your comments on our draft report and have included this
response as Appendix II.

In your response to our draft report, you did not concur with the two
recommendations, or with the potential monetary savings of at least
$400,000 in Recommendation No. 1. Therefore, a management decision has
not been reached on either of the recommendations.

Please provide within 30 days any additional information related to actions
planned or taken to implement these recommendations, as well as your
proposed estimated savings amount.

I appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                      Page 1 of 28
Table of   Summary of Results..............................................................................3
Contents
 B         Background ...........................................................................................3

           Audit Objective.....................................................................................4

           Audit Findings ......................................................................................4

                     Did the Bureau for Management, Office of Administrative
                     Services, manage its photocopying program economically
                     and efficiently?..........................................................................4

                                USAID Can Save At Least $400,000 Annually............5

                                USAID’s Photocopying Program Has
                                Critical Internal Control Weaknesses ...........................8

                                           Lack of Comprehensive
                                           Inventory Control System .................................9

                                           No Documented Procedures To
                                           Guide Program Management ............................9

                                           Inadequate Administrative
                                           Controls On Processing Invoices .................... 10

                     Other Issues............................................................................. 11

                     Conclusions............................................................................. 11

                     Recommendations................................................................... 12

           Management Comments and Our Evaluation ..................................... 12

           Appendix I - Scope and Methodology................................................ 16

           Appendix II - Management Comments............................................... 21

           Appendix III - Alternative Photocopy Management Programs .......... 25




                                                                                                         Page 2 of 28
Summary of   The audit was designed to determine whether the Office of Administrative
Results      Services managed its photocopying program economically and efficiently
             [page 4]. We determined that the Office did not manage the program
             economically and efficiently, as its cost per copy was 6½ cents, whereas our
             review of alternative photocopying management services available cost 1½
             to 3½ cents per copy [page 5]. This high cost was incurred because USAID
             underutilized its copying capacity. Thus, given USAID’s current
             photocopying demand, we conservatively estimate that it is incurring at least
             $400,000 per year more than what is reasonable. Accordingly, we estimate
             that USAID could save (or put to better use) at least $1.6 million over four
             years, the average useful life cycle for photocopying machines [page 7].

             In addition, the Office was deficient in critical internal control areas. It did
             not have: (1) a comprehensive inventory control system [page 9];
             (2) documented procedures to guide program management [page 9]; or
             (3) adequate administrative controls on processing invoices [page 10].

             The report recommends that the Office of Administrative Services should
             outsource the photocopying program under a cost per copy agreement and
             implement adequate controls over the operation of that agreement [page 12].

             In response to our draft report, the Office of Administrative Services stated
             that its goal for the copier program is to provide service when and where
             needed and in the most economical fashion. However, instead of agreeing to
             outsource the photocopying program, it intends to maintain its own
             management. This was due to concerns it had for customer satisfaction and
             the difficulty posed with early termination charges under one of its major
             lease agreements. Although we commend USAID’s initial efforts to manage
             its photocopying program more economically and efficiently, we believe that
             its corrective actions are neither sufficiently economic nor efficient and thus
             do not adequately address our recommendations. Therefore, a management
             decision has not been reached on either of the recommendations [page 12].


Background   USAID's Automated Directives System, Chapter 512, states that the Bureau
             for Management, Office of Administrative Services, is responsible for
             providing photocopying services in a cost-effective manner to
             USAID/Washington offices. To accomplish this service, the Office of




                                                                                    Page 3 of 28
                  Administrative Services has managed more or less 125 convenience
                  photocopiers1 within the Ronald Reagan Building.

                  In concert with the physical move to the Ronald Reagan Building during the
                  summer of 1997, USAID conducted a major overhaul of its photocopying
                  machine portfolio. The Office of Administrative Services entered into
                  agreements with three manufacturers—Xerox Corp. (Xerox), Sharp
                  Electronics Corp. (Sharp), and Oce-USA, Inc. (Oce)—to supply a portfolio
                  of machines. At the time of audit, Xerox was the principal supplier with
                  approximately 75 machines, Sharp was the supplier of 40 machines, and Oce
                  was the supplier of 10 machines. Of the 75 Xerox machines, 73 were leased
                  under a lease-to-own program. The other 2 Xerox machines as well as all 40
                  Sharp machines and the 10 Oce machines were owned by USAID.

                  On average, USAID/Washington produces over 1 million photocopies each
                  month. Over the course of a year, USAID/Washington spends (not counting
                  staff costs) nearly $1 million to produce these photocopies. The cost of these
                  photocopies is covered predominately by agreements with three suppliers,
                  who are responsible for the maintenance of the machines as well as all
                  supplies (such as toner), except paper. USAID purchases the paper
                  separately at about ½ penny per page.


Audit Objective   As part of its fiscal year 2001 audit plan, the Information Technology and
                  Special Audits Division performed an audit of the management of the
                  convenience photocopying program at USAID/Washington to answer the
                  following audit objective:

                  Did the Bureau for Management, Office of Administrative Services,
                  manage its photocopying program economically and efficiently?

                  Appendix I describes the audit’s scope and methodology.



Audit Findings    Did the Bureau for Management, Office of Administrative Services,
                  manage its photocopying program economically and efficiently?

                  The Office of Administrative Services (Office) did not manage its
                  photocopying program economically and efficiently.


                  1
                   Convenience photocopiers are those that are generally available for use by USAID staff and,
                  thus, exclude special-use machines and the high production volume machines in use by the
                  USAID print shop.




                                                                                              Page 4 of 28
Based on comparable federal agency programs and alternative
management program services, costs of programs similar to
USAID/Washington should be in a range of 1½ to 3½ cents per copy.
This compares to 6½ cents per copy for the USAID program. As a result,
it is costing USAID at least $400,000 per year more than it should for
photocopying (current annual costs are nearly $1 million), or at least $1.6
million when projecting the costs over 4 years—the average useful life
cycle for photocopying machines.

In addition to a photocopying program that is not operating economically
and efficiently, USAID’s photocopying program has numerous internal
control weaknesses relating to inventory management, operating
procedures, and processing of invoices for payments.

USAID Can Save At Least $400,000 Annually

Despite the inherent requirement to provide services in a cost-effective
manner, USAID did not manage its photocopying program economically
and efficiently. USAID’s cost-per-copy was 6½ cents whereas alternative
photocopying management services cost 1½ to 3½ cents per copy.
Consequently, USAID can save at least $400,000 annually or at least $1.6
million over 4 years—the average useful life cycle for photocopier
machines. These unrealized savings are attributable to underutilized
capacity and insufficient management oversight that has not satisfactorily
stressed cost management.

Inherent with prudent use of U.S. taxpayers' dollars is the requirement to
manage federal programs economically and efficiently. To relate this
specifically to USAID's photocopying program, we reviewed (1) the
results of recent and comparable evaluations performed by the Federal
Deposit Insurance Corporation Office of Inspector General (FDIC/OIG) of
FDIC copying programs2 and (2) alternative photocopying management
services within the U.S. Government. The FDIC/OIG evaluations
reported that a target cost per copy rate of 2 to 3 cents was realistic and
acceptable, and they noted that, according to the General Services
Administration, agencies should spend no more than 3 cents per copy.

One alternative photocopying management service is provided by the
Office of Multi-Media Services within the Department of State (State).
They offer full service photocopying programs not only to State offices,

2
 Evaluation of the FDIC Headquarters Copier Administration Program, Evaluation Report
No. 99-004 dated June 15, 1999, and Evaluation of FDIC Regional Copier Program,
Evaluation Report No. 99-007 dated September 30, 1999.




                                                                       Page 5 of 28
but also to other interested governmental entities. For example, the former
United States Information Agency (USIA) entered into a simple
Memorandum of Understanding agreement with State in September 1997
to obtain a photocopying management program for 2.4 cents per copy.3
Although State’s current published cost per copy rates are higher, they can
negotiate competitive cost per copy rates.

Another alternative photocopying management service is provided by
GoTo.Gov, a self-sustaining, non-appropriated governmental entity within the
Department of the Treasury. GoTo.Gov is a franchise fund established under
the 1994 Government Management Reform Act to foster competition and
creativity in government. GoTo.Gov provides a range of administrative
support services to U.S. government agencies. It, too, can manage
photocopying programs under a simple agreement and currently manages cost
per copy programs that are comparable in size and copy volume to USAID for
1½ to 3½ cents per copy.

A third alternative is the Department of Labor’s Northeast Regional
Cooperative Administrative Support Unit (CASU). This CASU is one of
several CASUs operating under various U.S. government agencies. They also
are non-appropriated, entrepreneurial entities and were first initiated in 1986
by the President’s Council on Management Improvement. The CASU
indicated that it could provide a cost per copy program having a cost per copy
tied to each of five different volume level machines. Given USAID’s current
volume and mix of machines, the overall average cost per copy would be
about 2½ cents per copy. See Appendix III for more information about
alternative cost per copy programs.

Given the results of our reviews of the FDIC/OIG evaluations and
alternative management program services available, it is reasonable to
deduce that economically and efficiently managed photocopying programs
comparable to USAID's should cost in a range of 1½ to 3½ cents per copy.
However, for the audited period January 2000 through March 2001, we
found that USAID/Washington's cost per copy for its convenience
photocopying program was 6½ cents. The cost per copy was obtained
from the following summarized data for that fifteen-month period:



3
  State's cost per copy programs establish a per-copy rate based on its clients' estimated annual
copying demand. To provide some comparison to USAID's copying demand, USIA's was
about two-thirds that of USAID's, on an annual basis for the audited period. Unless otherwise
stated, all references to cost per copy in this report include supply costs with the exception of
paper, which costs approximately one-half cent per page. Current State cost per copy
programs include the cost of paper; however, the 2.4 cost per copy program for USIA did not
include the cost of paper.




                                                                               Page 6 of 28
       Table of Copies, Total Cost, and Cost per Copy By Vendor

Machine               Number of                    Total               Cost per
Vendor                  Copies                     Cost                 copy
Xerox                  8,807,000                 $ 663,000              7.5 ¢
Sharp                  6,306,000                 $ 335,000              5.3 ¢
Oce                    1,539,000                 $ 81,000               5.3 ¢
Total                 16,652,000                $1,079,000              6.5 ¢

Appendix I describes more detail of our audit’s cost per copy
methodology.

This high cost was incurred because USAID underutilized its copying
capacity. In fact, the Office had placed little importance on the need to
monitor or track copy volume. Furthermore, the Office had not placed
responsibility for conducting periodic monthly meter readings. Volume
was generally viewed by the Office as an insignificant number that
sometimes appeared on the monthly lease and/or maintenance invoices.
Those volume numbers were often inaccurate estimates or readings
determined by the companies billing for their lease and maintenance
services.

Strict discipline in maintaining monthly copying volume statistics by
machine is fundamental in assessing whether the appropriate number and
type of machines have been deployed. However, USAID's lack of
attention to (and application of) actual copying demand proved to be
significant for two reasons:

•   USAID's overall average monthly copying demand was only about 7
    percent of copying capacity, as measured against the manufacturers'
    recommended volumes,4 and

•   that demand represented only about 40 percent of the volume that its
    suppliers used in pre-determining lease and maintenance pricing for
    the type and quantity of machines acquired.

As a result, given USAID's current annual photocopying demand, we
estimate that it is incurring at least $400,000 per year more than what is
reasonable (current annual costs approach $1 million). Thus, we estimate
that USAID could save (or put to better use) at least $1.6 million over a

4
  Of a total 125 copiers, we had both USAID's actual average and the manufacturers'
recommended monthly volumes for 114 of them. When the manufacturers' recommended
volumes were stated as a range, we used the low end of that range in our calculation of
capacity utilization. We therefore believe the 7 percent estimate is a conservative one.




                                                                           Page 7 of 28
    four-year span, the average useful life cycle for photocopying machines.
    These savings are very conservative estimates and are based on a program
    costing 3½ cents per copy—the high end of the documented cost range
    available of 1½ to 3½ cents. The savings range available to USAID, if in
    fact the cost per copy did range from 1½ to 3½ cents, would be as given in
    the following table:

                  Table of Available Savings Over Four Years

                                          Low-end           High-end
                                           Savings           Savings
USAID Cost per Copy                          6.5 ¢             6.5 ¢
Available Programs Cost per Copy             3.5 ¢             1.5 ¢
Savings per Copy                             3.0 ¢             5.0 ¢
USAID's Annual Copy Volume               13,320,000         13,320,000
Annual Savings (nearest $1,000)           $400,000           $666,000
Four-year Savings                        $1,600,000         $2,664,000

    In addition to the Office’s lack of attention on copying volume discussed
    above, we have identified other significant internal control problems
    relating to the management and operation of the photocopying program.

    USAID’s Photocopying Program Has
    Critical Internal Control Weaknesses

    Government agencies are required to implement internal controls to
    provide reasonable assurance that the objectives of an agency are being
    achieved in the effectiveness and efficiency of operations. However,
    USAID’s photocopying program has critical internal control weaknesses
    relating to inventory management, operating procedures, and processing of
    invoices for payments attributable to insufficient management oversight.
    These weaknesses contributed to USAID’s high cost and inefficient
    operation.

    A key factor in helping an agency to achieve program results, minimize
    operational problems, and improve accountability is to implement
    appropriate internal controls. The General Accounting Office’s
    “Standards for Internal Control in the Federal Government” states that
    internal control should provide reasonable assurance that the objectives of
    an agency are being achieved in the effectiveness and efficiency of
    operations including the use of the entity’s resources. The Standards also
    provide that:

    •   an agency must establish physical control over equipment to include
        periodic counts that are compared to control records;



                                                                     Page 8 of 28
•   internal controls and all transactions and other significant events need
    to be clearly documented and readily available for examination;
•   program managers need both operational and financial data to
    determine whether they are meeting their goals for accountability for
    effective and efficient use of resources; and
•   pertinent information should be identified, captured, and distributed in
    a form and time frame that permits people to perform their duties
    efficiently.

However, we found that the Office was deficient in the above critical
internal controls due to insufficient management oversight. We have
categorized the deficiencies as follows:

Lack of Comprehensive Inventory Control System - A comprehensive
inventory of photocopying machines was not available at the Office when
we started our audit. An inventory listing was provided to us weeks after
we began the audit. However, when we compared that inventory to our
physical inventory of machines that were under the Office's management
and located in the Ronald Reagan Building, the listing was substantially
inaccurate and/or incomplete. For example, the inventory listing
contained machine(s) that was/were:

•   replaced but the replacement machine was not included;
•   listed twice, each with different office locations and/or user
    responsibility;
•   identified with incorrect serial numbers, physical location, and/or
    responsible user office; and
•   unused for long periods and stored in closets.

In addition, the list contained other inaccurate or incomplete data relating
to:

•   cost to operate the machines;
•   whether a machine was leased or owned;
•   monthly copying volume usage (see earlier discussion); and
•   installation date and/or lease commencement and termination dates.

No Documented Procedures to Guide Program Management – The
Office of Administrative Services did not have written procedures to guide
management of the photocopying program. For example, the Office did
not have:

•   defined methods to establish and monitor "right-sizing" USAID's
    portfolio of machines, i.e., matching the various USAID offices




                                                                  Page 9 of 28
    copying demand (via monthly meter reads) with the correct type and
    quantity of machines;
•   standards or conditions under which a copier is replaced and/or
    disposed of, or when a copier could be moved from one office within
    USAID to another;
•   a system to monitor copying costs, in total or per copy, or a definition
    of what a reasonable target cost per copy might be; or
•   an analysis of cost effective alternatives of acquiring copying services
    including purchasing or leasing copying equipment or acquiring the
    services of a third party administrative support service provider.

In addition, personnel responsible for the management of the program did
not have clear, measurable objectives (e.g., target cost per copy) for the
program included in their annual employee work objectives.

Inadequate Administrative Controls on Processing Invoices – The
Office of Administrative Services did not have controls in place to prevent
the payment of invoices lacking sufficient detail to determine what was
being billed as well as invoices previously paid. We believe that had the
Office, for example, maintained a complete and accurate comprehensive
inventory system discussed earlier, it could have served as a checklist in
assuring that the monthly billings for each machine’s lease and
maintenance were for the correct amount and that a given month’s
services were paid only once.

In regard to Xerox machines, a fixed, pre-determined amount for each of
the various models was payable for each month under a lease and
maintenance agreement, except that the first month’s amounts were to be
prorated to the day of installation. For these machines, Xerox invoiced
USAID summarily each month. Based on data initially provided by the
Office, we calculated what was billable by Xerox and found that there was
an unexplained variance for each of the fifteen months of our audit period.
The total variance for the audit period was $26,168 overbilled. Several
times we requested the Office to provide the list of machines, including
date of installation, that Xerox summarily billed for by month. The date
of installation was critical as several of these machines were indicated as
having been installed within the months of our audit period. The lists we
were provided by the Office, most of which were obtained from Xerox,
revealed different dates for the same machines in question, some dates
conflicting by as much as six months. Only after additional research by
the Office with Xerox, and months after completion of our audit
fieldwork, were we provided documentation allowing us and, thus, the
Office, to generally reconcile the amounts that Xerox invoiced. It was
clear that the Office was not able to readily explain what it was approving
for payment to Xerox on a month-to-month basis.



                                                                  Page 10 of 28
In regard to Sharp machines, the Office approved the payment of several
invoices for lease payments for a given month that had previously been
paid under a different invoice number. The Office again did not have
documentation readily available for examination to resolve the apparent
duplicate payments totaling $54,223. The explanation for these payments
was that digits within Sharp’s invoices denoted that the months billed
were for the current year, even though the description within the invoices
(erroneously) stated the previous year’s leases. Although these invoices
indeed were not paid twice, this satisfactory explanation also required
several requests for documentation and further research by the Office after
completion of our audit fieldwork.

Other Issues

In addition to the above issues, we identified other findings which were
not significant to the audit objective and, thus, are not included in this
audit report. These findings were communicated to the Director of the
Office of Administrative Services and to the Contract Audit Management
Branch Chief, Office of Procurement, by a separate memorandum dated
September 25, 2002.

Conclusions

We believe that the implementation of appropriate internal control systems
to correct the deficiencies of the current photocopying program will be
costly in terms of USAID’s human resources.5 On the other hand, we do
not believe USAID can achieve significant savings by continuing to
manage every aspect of the program in any similar fashion as it has in the
past. Just a reassessment alone by USAID to right-size its client offices
with the appropriate number and types of machines would be a major and
costly undertaking.

Significant savings can be achieved, however, by utilizing the economies
of scale concept that are built into alternative cost per copy programs such
as those introduced in this report. Furthermore, the assessment for the
appropriate number and types of machines that should be deployed are
built into the cost per copy programs available. Moreover, the internal
controls needed, for example, to implement an agreement with State,
GoTo.Gov, or a CASU would be minimal—a simple inventory list and
monthly meter reads to check against a single monthly invoice. We,
therefore, are not making audit recommendations to correct the several

5
 We did not audit USAID’s human resource costs relating to the management of its
photocopying program. Such costs were in addition to the 6½ ¢ cost per copy cited.




                                                                           Page 11 of 28
                 internal control weaknesses of the current photocopying program. Rather,
                 we believe USAID should negotiate a low cost per copy arrangement
                 under an agreement with an U.S. Government entity, then institute the
                 simple internal controls that are needed to implement the agreement. As a
                 consequence, in addition to the potential monetary savings documented in
                 this report, USAID human resources can be saved or put to better use.

                 In addition, the Office of Management and Budget provides guidance to
                 U.S. government agencies on the appropriate use of commercial sources
                 for activities. The Office of Management and Budget Circular No. A-76,
                 “Performance of Commercial Activities,” states that the U.S. Government
                 should only perform an activity [such as the management of its copying
                 program] provided that a cost comparison can show that the Government
                 can operate the activity on an ongoing basis at an estimated lower cost
                 than a qualified commercial source.6 Our audit has documented that
                 outside sources are available to manage the photocopying program at
                 lower cost. Consequently, we believe that the Bureau for Management,
                 Office of Administrative Services, should use an outside source to manage
                 its photocopying program and institute appropriate controls.

                         Recommendation No. 1: We recommend that the Bureau
                         for Management, Office of Administrative Services, after
                         a review of the available cost per copy management
                         programs, enter into an agreement with an outside source
                         to manage its photocopying program to save at least
                         $400,000 annually.

                         Recommendation No. 2: We recommend that the Bureau
                         for Management, Office of Administrative Services,
                         implement management controls appropriate to the
                         operation of that agreement.



Management       Based on the following discussion, we consider that a management decision has
Comments and     not been reached on either Recommendation No. 1 or Recommendation No. 2.
Our Evaluation
                 Management stated that its overarching goal for the photocopying program is to
                 provide service when and where needed and in the most economical fashion. It
                 agreed that there is currently too much copier capacity. Therefore, it is currently

                 6
                  The analysis and justifications normally required under OMB Circular A-76 do not apply
                 because they are superseded by the Government Management Reform Act’s explicit
                 authorization for franchise funds to provide common administrative support services to other
                 agencies.




                                                                                             Page 12 of 28
developing standard operating procedures and inventory controls for managing
the current program. Further, it stated it is currently (and intends to continue)
performing reviews for reducing capacity and costs over the next two years.
After two years—in November 2004 when the current Xerox lease agreement
terminates and when management plans a full competition—it believes
significant savings can be achieved.

The Office of Administrative Services primarily noted two sets of concerns—
lease termination charges and customer service. Specifically, management noted
that the current lease with Xerox carries early termination charges equaling the
remaining lease payments through November 2004. In regard to customer
service, Xerox provides on-site service representatives, while their Sharp and
Oce agreements provide for service within eight and four hours respectively of a
service call, service response times which it apparently did not believe were
available under the external per copy arrangements we recommended.
Consequently, management could not confirm that a $400,000 savings is
necessary or desirable from a customer service perspective.

We applaud management for wanting to take corrective steps for overseeing the
current program now and over the next two years. And we appreciate the
concerns about service to its clients and the difficulty posed by the early
termination costs associated with the lease agreement with Xerox. However, as
to the steps aimed at correcting the current copying program—a program more
cumbersome than necessary with its various supplier lease and maintenance
agreements—we believe that the steps proposed by management are neither
sufficiently economic nor efficient. To better manage the existing program
would require significantly more of USAID’s scarce human resources. Such
additional costs are in addition to our documented cost per copy. Conversely,
less human resources would be required to implement the simple controls over
an outsourced program. This would achieve even greater savings. Furthermore,
our recommendation to outsource the management of the photocopy program is
consistent with the principles of OMB Circular No. A-76 as well as the
President’s Management Agenda to promote competitive sourcing of
commercial-type activities.

Another aspect of the USAID response is “right-sizing,” or down-sizing as
management prefers. This is a service that the alternative management programs
we documented include on an ongoing basis as part of their per copy rates. Even
so, our audit’s savings are based on a one-for-one replacement of the entire
inventory of USAID’s photocopying machines. As stated in the scope and
methodology appendix, our audit did not assess whether the number, type, or
physical deployment of photocopying machines were optimal within the Ronald
Reagan Building. This is contrary to the Office of Administrative Services’
comments that our savings presuppose the use of production-type copiers. In
addition, the Office stated that almost all of the Sharp and Oce machines are




                                                                    Page 13 of 28
owned by USAID and that only maintenance charges are required. This is
technically true but misrepresents the fact that many of these machines were
originally leased and will soon need to be replaced. Any “right-sizing” or
“down-sizing”, as noted by USAID management in their comments, could
induce savings beyond the $400,000—the lower end of our projected savings
range.

As for termination charges, the Xerox agreement includes early termination
charges that are regrettably costly. Despite the high costs of Xerox machines (a
fact we pointed out to management early in the audit), USAID has added new
machines under the lease agreement and extended lease dates. Nevertheless,
USAID can still achieve substantial savings by outsourcing (our
recommendation) and will start deriving these savings immediately (net of
termination charges). The $400,000 annual savings was a conservative amount.
Based on the detail studies we performed that documented realistic savings of
about 4 cents per copy, $530,000 annual savings were possible, subject to
reduction by any residue of the Xerox termination charges. Furthermore, we
believe that management has effectively acquiesced to a framework that will not
allow for significant savings to be achieved until November 2004.

As for customer service, alternative photocopy management programs on a cost
per copy basis are offered with relatively short turnaround time for machine
service. For the three programs documented within this report, turnaround
service was specified as four hours or less for two of the programs and six hours
or less for the third program. Excluding Xerox, such turnaround times compare
favorably to the current USAID arrangements. The current Xerox arrangement
is not included in this comparison because of its exorbitant price and the
apparent lack of necessity for on-site technical service. For example, we have
observed that throughout the Ronald Reagan Building photocopying machines
are easily accessible and available if a specific machine is temporarily out of
service. Thus, on-site service is a questionable necessity. Furthermore, the
current servicing arrangements are inconsistent. Xerox machines have on-site
service, whereas Sharp machines have an eight hours turnaround time and Oce
machines have a four hours turnaround time.

In addition, customer service has to be considered using cost as an element. The
statistics presented in the table on page 7 reveal that the effective marginal cost
that USAID has incurred for Xerox’s on-site technical service was 2.2 cents per
copy (the difference between Xerox’s 7.5 cents to Sharp and Oce’s 5.3 cents), or
about $155,000 per year. That marginal cost of 2.2 cents per copy (alone)
almost equates to the full cost of the per copy alternative management programs
we documented—ranging from 2.35 to 2.5 cents (see Appendix III).

In summary, we commend management’s initial efforts to manage this
program more economically and efficiently. However, its corrective




                                                                    Page 14 of 28
measures do not adequately address our recommendations. We believe
that our recommendation to outsource this photocopying program is both
achievable and consistent with U.S. government policy. Furthermore, our
savings estimate of at least $400,000 annually is achievable and based on
conservative rationale. These savings are significant. To place this into
perspective, according to USAID Office of Budget data, the average cost
for a Washington, D.C. staff position is $102,000 (salary, retirement,
social security, Thrift Savings Plan contributions, Medicare, cash awards,
and health insurance) in fiscal year 2002. The savings available of
$400,000 is roughly the equivalent of supporting four Washington staff.




                                                                Page 15 of 28
                                                                                       Appendix I


Scope and     Scope
Methodology
              The Office of Inspector General in Washington, Information Technology
              and Special Audits Division, conducted this audit, in accordance with
              generally accepted government auditing standards, to determine if the Office
              of Administrative Services managed its photocopying program economically
              and efficiently. The audit covered operations for the period from January 1,
              2000, to March 31, 2001. This time period was selected in order to have one
              year of cost and volume data and to use the most current data obtainable at
              the start of our audit fieldwork. We reviewed the 125 photocopying
              machines within the Ronald Reagan Building and the photocopying machine
              costs—approximately $1.1 million—for the same 15-month period. Due to
              substantial problems with available source information for inventory,
              photocopying volume, and costs, we independently created our own
              inventory, made assumptions regarding photocopying volume when source
              data was either missing or obviously faulty, and used varying sources to
              determine costs when source data was either missing or obviously flawed.
              The Methodology section provides further detail. We reviewed the
              management controls including inventory controls, administrative
              procedures to guide program management, and administrative controls on
              processing invoices. There were no prior audit findings of the photocopying
              program. The audit fieldwork was conducted at USAID headquarters in
              Washington, D.C. from April 11, 2001 to March 5, 2002. Subsequently, the
              Office requested additional time to provide documentation to account for
              payments that appeared to be either duplicate or without explanation. This
              documentation was provided in several installments through June 27, 2002.

              Methodology

              We surveyed reports from other federal government inspectors general to
              identify prior audits of photocopying programs. Based on this survey, we
              identified relevant work at the Inspector General of the Federal Deposit
              Insurance Corporation (FDIC). We then interviewed FDIC Inspector
              General audit staff to discuss their findings and methodology.

              We interviewed officials as well as reviewed and tested documentation
              supporting USAID’s photocopy management at the Ronald Reagan
              Building. These documents included inventory lists of machines;
              procurement negotiation memoranda, contracts, purchase orders, lease and
              maintenance agreements; various program obligation, expenditure, and
              budget status reports; machine meter readings; suppliers’ invoices; officials’
              work objectives under the agency’s annual evaluation program; and relevant
              sections of the Automated Directives System. We reviewed USAID’s
              electronic paid invoice files with voucher payment officials at the USAID



                                                                                 Page 16 of 28
Financial Management Office. Further, we reviewed photocopying machine
manufacturers’ specifications relating to recommended copying volumes.
We surveyed available photocopying management programs within the
federal government including the Department of State’s Multi-Media
Services Division, the Treasury Department’s GoTo.Gov, and the
Department of Labor’s Cooperative Administrative Support Unit. Further
details on these programs are discussed in Appendix III.

Our audit opinion to answer the audit objective was based on our
professional judgement. The audit objective was conducive to using a
materiality threshold to base our opinion; however, at the beginning of the
audit we not only did not know what USAID’s cost per copy was, we also
did not know what was an acceptable criteria for comparison. This
information was not clear until near the end of our fieldwork. Nevertheless,
as the audit report reveals, the differences between USAID’s cost per copy
and acceptable alternatives were very substantial—6½ cents as compared to
3½ cents or less.

Initially we sought to determine the program’s total costs from various
expenditure reports that the Office provided in response to our requests for
documentation supporting their cost of operating the photocopying
management program. However, we learned that there were material
problems with the timing of the expenditures identified in those reports. For
example, disbursements were sporadic and significantly later than the month
they were applicable. Therefore, as these reports could not be relied upon,
we sought to carefully examine the details of invoices paid to Xerox, Sharp,
and Oce in order to match actual cost to the applicable months of our audit
period. We expected the Office to maintain such paid invoice files.
However, we found this not to be the case—the files were unorganized and
incomplete. We then examined USAID Financial Management Office’s
paid invoice files to determine costs. By examining these invoices for the
indicated billable month for a given machine, we expected to arrive at the
actual amount paid specifically applicable to the copying volume of our 15-
month audit period. Even then, we could not rely totally on Financial
Management’s paid invoice files to determine the full costs because a
number of invoices were missing. In cases when we could not find a paid
invoice for a predetermined fixed amount, such as monthly lease and
maintenance payments, and we knew that for a given month there should
have been a paid invoice, we included the cost of those months in our cost
calculation. In cases of missing invoices for variable billable amounts that
are based on variable monthly volume, we included the average of costs
obtained for those months for which we located paid invoices.

Costs included in our calculation were direct costs, excluding paper,
involving actual disbursements applicable to the photocopying volume




                                                                  Page 17 of 28
generated for the audited period. Therefore, the costs included payments for
leases, maintenance, and supplies. However, in addition to paper, the costs
did not include depreciation for USAID-owned machines,7 energy to operate
the machines, cost of floor space, or cost of USAID’s human resources to
manage the program.

Costs referred to above were determined for each machine during the audit
period and were grouped by machine manufacturer, i.e., Xerox, Sharp, and
Oce. These costs were then applied to copying volume generated, as
described in the following paragraph, by the three machine groups to derive
average cost per copy for the 15-month period of our audit and an average
12-month period (one fiscal year).

To determine the number of photocopies taken during the audit period, we
obtained meter readings from photocopying management staff. We intended
to simply subtract the December 1999 period ending readings from the
March 2001 period ending readings. However, this could not be done in
many cases because of various reliability problems with the meter readings
provided. There were often cases of missing or non-sequential series of
monthly readings in the ‘middle’ of our audited period, and, consequently,
this posed problems in an attempt to manage the program economically and
efficiently. Nevertheless, it did not pose a problem to us in calculating
volume when we had reliable beginning and ending readings. However, in
those cases that we had problems with the beginning or ending readings, we
applied the average volume of the months we had reliable meter readings to
the month(s) we had data problems. When deemed necessary, we
corroborated the ending meter reading for reasonableness by comparing it to
our own meter reading recorded at the time we performed a physical
inventory, as further described below.

We also determined utilization rates (as a percentage) for each of the 125
machines. The denominator used to calculate the utilization rate was the
manufacturer’s recommended monthly volumes for each photocopy machine
model. In those cases where the manufacturer’s specification was a range,
we used the low end of the range to employ a conservative approach. The
numerator was derived by determining the actual volume as described
earlier.


7
 Most of the machines used during our audit period were under leases. Those that were (or
became) USAID-owned anytime during our 15-month audit period were either purchased
prior to that period, owned according to lease-to-own agreements prior to that period, or
became USAID-owned at the termination of lease-to-own programs during the period.
Therefore, there were no purchases of convenience photocopying machines during the 15-
month audit period.




                                                                           Page 18 of 28
We identified the inventory controls needed to manage a photocopying
program economically and efficiently based on relevant internal controls
required by the U.S. General Accounting Office’s “Standards for Internal
Control in the Federal Government.” On this basis, we determined that
management must, at a minimum, maintain an inventory control system that
documents and records the following data in a timely and accurate manner:
model, serial number, installation date, specific location, actual use rate
including maintenance downtime, manufacturers’ recommended use rate,
cost of purchase or lease (as applicable), maintenance and repair cost, and
date and manner of disposition. As no inventory of any kind was available
to us when we began our audit, we performed a 100 percent physical
inventory of USAID photocopying machines in the Ronald Reagan Building
and recorded relevant inventory data.

We determined if the Office of Administrative Services had updated written
procedures to guide program management in deploying the optimal type and
number of machines and whether actual cost per copy data was maintained
and monitored against a target. Our audit did not assess whether the number,
type, or physical deployment of photocopying machines were optimal within
the Ronald Reagan Building.

We did not determine if USAID’s uneconomic and inefficient photocopying
program was, in part, caused by the original contracting actions that
negotiated the lease of the bulk of photocopy machines in 1997 for two
reasons: (1) the age (about 5 years) of the contracting actions and (2) the
primary ongoing responsibility of the Office of Administrative Services to
manage its own photocopy program. We also did not audit these original
contracting actions to ensure that they conformed to procurement
regulations.

In regard to the Office of Administrative Service’s processing of invoices to
the USAID Financial Management Office for payment, we reviewed
whether administrative controls were in place to prevent the Office from
processing duplicate and/or otherwise unexplained invoices to Financial
Management for payment. Although our audit objective was not to
identify duplicate and/or unexplained invoice payments, we however
found several instances that required further explanation during the course
of determining costs associated with the Sharp and Xerox machines for the
period of our audit—January 1, 2000 to March 31, 2001.

Our audit reviewed the 125 photocopiers used by USAID within the Ronald
Reagan Building. (The precise number of photocopiers in use actually
varied slightly from 125 at different points of time during the audit period
January 1, 2000 to March 31, 2001.) The audit did not cover the use of
photocopiers in other Washington, D.C. locations or overseas locations. In




                                                                  Page 19 of 28
addition, our audit focused on what were considered to be “convenience”
photocopiers. These photocopiers are the machines generally available for
use by USAID staff. We consequently did not cover high production
volume machines in use by the USAID print shop or other special-use
machines. We also did not audit the use of paper for the photocopier
machines except to acknowledge the quantity used and its per sheet cost
approximately ½ penny per sheet. This was due to paper not being normally
included within price quotes for cost per copy programs and estimates.




                                                               Page 20 of 28
                                                                 Appendix II

Management
Comments


                                      September 6, 2002



             MEMORANDUM

             TO:      Melinda Dempsey, IG/A/ITSA

             FROM:    Roberto J. Miranda, M/AS/OD

             SUBJECT: USAID/Washington’s Management of Its
                      Photocopying Program (Report No. A-000-02-xxx-P)

                  Thank you for this thorough and detailed review of
             USAID copier operations. The Office of Administrative
             Services is committed to making our organization a world-
             class service provider. We will attempt to use your
             recommendations to guide our improvement efforts.

                  The convenience copier program is budgeted in FY 2002
             for $868,200. This is 9.2 percent of M/AS's non-rent
             budget, so there is much motivation to discover savings
             where possible. The copier program has not undergone a
             major change since 1997. This audit is timely and will
             serve as a starting point for our efforts to provide the
             best value and service in our copier program.

                  The overarching goal of the USAID convenience copier
             program is to provide service when needed, where needed,
             and in a most economical fashion.

                  At the time of the move to the Ronald Reagan Building,
             it was decided to locate one production-type copier on each
             floor (two through eight) and convenience copiers
             throughout the various work areas at the rate of one copier
             for 30 employees. Prior to the move, the agency had
             utilized three manned copier centers with additional walk-
             up copiers in high production areas, a main print shop, and
             additional convenience copiers throughout Agency space as
             needed. At the time of the move, USAID estimated a need
             for seven production-type and 106 convenience copiers. An




                                                              Page 21 of 28
                                                             2

in-house analysis determined that a combination of leased
and lease-to-purchase equipment would best meet the needs
of USAID. These two options provided on-site copier
maintenance that was unavailable in a "per copy" lease
rate.

     M/AS/CPD is currently conducting a review of the
copier lease agreements to assess options for saving funds
by downsizing copiers. This assessment will include a
review of:

!    average copier volume per machine
!    peak copier volume per machine
!    need for auxiliary services
!    copiers per employee
!    distance to next copier
!    Section 508 compliance
!    service record by machine
!    current lease and maintenance terms
!    client satisfaction

     It is clear from the audit and M/AS/CPD confirms that
USAID has excess copier capacity at this time. It appears
that the production-type copiers located on each floor are
currently generating approximately 24 percent of their peak
volume. Convenience copiers were placed upon demand with
justification and have been left in place while needs may
have changed. There is a need for development of clear
standards for justification and review of convenience
copiers.

     USAID is reviewing options within our current contract
agreements. At this time, there is a limited amount USAID
can do with the production-type copiers. Xerox holds the
lease for 67 copiers. At the time of this agreement, Xerox
accepted a trade of 60 copiers. The Early Termination
Costs for these copiers are built into the current lease
and effectively require a payoff totaling the lease
payments remaining on the agreement at the time of
termination. The current lease will terminate in November
2004. This provides ample time for M/AS/CPD to analyze
needs and perfect a plan for optimal placement of
production and convenience copiers.

     The audit recommends that USAID move to a service
arrangement based on a "per copy" charge. In the past, a
"per copy" rental system was used for convenience copiers.




                                                 Page 22 of 28
                                                           3


This system did not include on-site service personnel and
frequently entailed copier downtime of up to 24 hours.
Current maintenance agreements with Sharp Electronics
provide preventive maintenance and service response time of
8 hours or less. The maintenance agreements with OCE
provide preventive maintenance, routine copier supplies
(not including paper) and a 4 hours or less response time.
Rates for these agreements are determined on a "per
machine" basis. Xerox charges are based on a total monthly
allowance for all copiers under one volume band. The
contract also includes on-site maintenance and supplies.

     With the exception of three newly leased OCE machines,
all Sharp and OCE machines are owned by the Agency so that
only maintenance is paid on an ongoing basis.

     It is anticipated that a thorough review of all
aspects of USAID's copier operations can be completed by
November 2003 allowing time for a full competition of needs
for November 2004. While conducting this review, USAID
will adjust machinery where possible to save funds and
provide optimal service.

     USAID seeks to verify with the Inspector General the
rates cited in the report to determine which aspects of our
agreements weigh most heavily in the increased costs.
M/AS/CPD believes that some inefficiency of cost may be
necessary to provide the convenience required by our
customers, though great savings are likely to be generated
after the termination of our current Xerox agreement. We,
therefore, cannot confirm at this time that a $400,000
savings is necessary or desirable from the standpoint of
customer service. We believe that a cost of 1 1/2 to 3 1/2
cents per copy presupposes a production-type usage of
copiers that is inconsistent with USAID staffing and
variable needs.

     M/AS/CPD is in process of developing Standard
Operating Procedures for the Copier Program Management. To
assist in future reviews and assure good practice in
inventory management, these procedures will provide for
continuing development and maintenance of a consolidated
inventory of copiers developed from the vendor inventories
prepared for this audit. This Consolidated Inventory
contains the following:




                                                 Page 23 of 28
                                                             4
•   make
•   model
•   serial number
•   placement (room number)
•   size of equipment
•   installation date
•   monthly maintenance cost

     This inventory is now a living document that is
updated as copiers are purchased, traded, and relocated to
different offices. We also have a replacement plan that
contains the installation date, life span of the copier and
the replacement date. The Inventory and Replacement Plan
will be consolidated into one document along with
maintenance histories to allow easy access to all
information necessary to manage and review the copier
program. Placement and size of copiers are also located on
the Agency AutoCAD document for easy review.

     We believe that this review and these procedures will
facilitate improved copier management and significant
savings after November 2004.

     We appreciate the considered review of the Office of
the Inspector General.




                                                 Page 24 of 28
                                                                               Appendix III

Alternative   The purpose of this appendix is to illustrate alternative photocopy management
Photocopy     programs. This presentation is intended for information purposes and to help
Management    USAID management with a “starting point” with which to begin corrective
              action on Recommendation No. 1. We are not recommending any one of these
Programs
              alternative programs over the other or over any of the other programs that are
              available.

              Department of State Office of Multi-Media Services

              In September 1997 the former United States Information Agency (USIA)
              negotiated a Memorandum of Understanding agreement with the
              Department of State (State) to provide a photocopying management program
              at a cost of 2.4 cents per copy. Under the agreement, State provided a
              portfolio of selected copying machines appropriate to USIA’s offices’
              demands and applications. The cost per copy was based on anticipated
              annual copy volume of 9,281,250 for a total of 48 machines. The resulting
              annual cost of $222,750 was the minimum or “base” charge of the program
              and, thus, was stipulated as the amount payable to State even if USIA’s
              actual volume was less than the anticipated volume. Copies in excess of the
              anticipated annual volume were to be billed at the same 2.4 cents per copy.
              The negotiated price of 2.4 cents reflected USIA turning over to State 48
              machines it owned that were typically four or five years old.

              Under the agreement, the State Department Office of Multi Media Services
              was responsible for:

              •   making all contractual arrangements for the procurement and
                  maintenance of new machines with the manufacturers;
              •   coordinating and scheduling delivery and installation of the new
                  machines by the manufacturers, as well as removal of the trade-ins;
              •   coordinating requests for maintenance and repair of machines through
                  the manufacturers within four hours of service call;
              •   scheduling user training with the manufacturers once the new machines
                  were installed;
              •   providing unlimited copy machine supplies, such as toner cartridges and
                  staples, but excluding paper, within three business days of an order;
              •   monitoring performance of machines and providing new replacements
                  for faulty performing ones;
              •   monitoring the volume usage of the machines in order to recommend
                  relocation or replacement with a lower or higher volume machine as
                  appropriate, and adjusting the minimum (or base) volume and cost
                  accordingly;
              •   arranging for the physical relocation of copy machines as needed; and
              •   providing one invoice per month containing the following data:



                                                                               Page 25 of 28
   #   machine location with office symbol and room number,
   #   machine manufacturer, model, and serial number,
   #   monthly copy volume and cost by machine,
   #   year-to-date copy volume and cost by machine,
   #   total of monthly copy volume,
   #   total year-to-date copy volume and cost, and
   #   the amount due for the month.

State’s current published cost per copy rates are higher than the above stated
2.4 cents program. Although the program currently offered is essentially the
same as that provided to the former USIA, State’s program now provides
paper. Another difference in the current published program is that all copies
in excess of the minimum or base charge, regardless of what that base cost
per copy is, are billed at a rate of 2½ cents.

USIA was the only non-State agency that had participated in State’s cost per
copy program. The State official responsible for the program stated that they
were available to negotiate a program with USAID management. He also
stated that their program could be tailored to meet the needs of USAID at
attractive terms in both service and cost.

GoTo.Gov

GoTo.Gov is one of several entrepreneurial organizations within the U.S
government that provide a range of administrative support services on a
competitive basis within or between agencies. It operates as a self-sustaining,
non-appropriated entity within the Department of the Treasury, and was
initially a pilot program established under the 1994 Government Management
Reform Act to foster competition and creativity in government. According to
program information, GoTo.Gov currently services over 65 federal
governmental organizations for its cost per copy program that are managed
under a simple agreement. GoTo.Gov said that programs comparable in size
and copy volume to USAID are performed for a cost of 1½ to 3½ cents per
copy to its clients.

Given USAID’s actual photocopying volume, GoTo.Gov indicated that it
could provide its cost per copy program at 2.35 cents per copy. The cost was
calculated using the same number of machines that USAID currently deploys
(125) but using a mix of machine models more appropriate to USAID’s actual
copying demand (whether an upgrade or downgrade). All machines provided
through Go.To.Gov would be new. Similar to the State program, the price per
copy was based on a minimum or base volume, which in USAID’s case is its
actual annual volume. In addition, and again similar to State’s program, as
quantity or configuration of machines changes, so do the cost per copy and




                                                                   Page 26 of 28
billable minimum copies change. GoTo.Gov also indicated that under this
program, it also would provide:

•   all service, repairs, and preventive maintenance;
•   all supplies, excluding paper;
•   delivery (within 30 days), installation, and training;
•   after installation of the new machines, relocation of up to 5 percent of the
    machines;
•   service response time within six hours;
•   monthly meter readings;
•   excess copies over the base volume at the same 2.35 cents per copy;
•   ongoing recommendations for deploying the appropriate number and type
    of machines;
•   machine upgrades without penalty; and
•   monthly billing with actual usage by machine.

Department of Labor Northeast Regional Cooperative Administrative
Support Unit

The Department of Labor’s Northeast Regional Cooperative Administrative
Support Unit (CASU) is a program within an interagency network of federal
entrepreneurial organizations that provides a full range of administrative and
operational support services to federal agencies on a cost reimbursable basis.
The CASU program was first initiated in 1986 by the President’s Council on
Management Improvement and is operated under guidance from a local
interagency board of directors.

Rather than providing one overall cost per copy applicable to the entire
photocopying demand volume of USAID’s, the CASU indicated that each
model/machine deployed would have its unique cost per copy structure.
Based on USAID’s actual photocopying volume and current mix of machines
deployed, CASU indicated cost per copy rates based on a minimum monthly
volume for the various new model machines would be as follows:

              Department of Labor Cost per Copy Estimates

Type Minimum Volume           Cost per Copy Cost per Copy > Min.
   I       1,500                 5.99 ¢            1.68 ¢
  II       4,500                 3.29 ¢            1.68 ¢
 III      13,500                 1.95 ¢            1.46 ¢
 IV       22,500                 1.82 ¢            1.46 ¢
  V       36,500                 1.63 ¢            1.15 ¢




                                                                  Page 27 of 28
Our analysis which applied the CASU’s above cost per copy rate structure to
USAID’s actual copying volume resulted in an overall average cost per copy
of about 2½ cents.

The CASU also indicated that under its program, it would provide:

•   all maintenance;
•   all consumable supplies except paper;
•   delivery (within 30 days), installation, and training;
•   service response time within four working hours;
•   monthly meter readings;
•   consolidated monthly billing;
•   provision for one funding document covering all machines; and
•   removal of machines at no penalty if due to lack of funding or
    reorganization outside the agency’s control.




                                                               Page 28 of 28
